No. ____________
IN THE

ROBERT DEANE SCHWARTZ,

Petitioner,
v.
RAYMOND MADDEN, WARDEN,

Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

CUAUHTEMOC ORTEGA
Interim Federal Public Defender
TRACY CASADIO*
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012-4202
Telephone: (213) 894-5375
Facsimile: (213) 894-0081
Tracy_Casadio@fd.org
Attorneys for Petitioner
*Counsel of Record

Petitioner, by his undersigned counsel, asks leave to file the attached Petition
for Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit
without prepayment of costs and to proceed in forma pauperis. Petitioner was
represented by counsel in the Ninth Circuit under the Criminal Justice Act, 18
U.S.C. ยง 3006A(b).
This motion is brought pursuant to Rule 39.1 of the Rules of the Supreme
Court of the United States.
Respectfully submitted,
CUAUHTEMOC ORTEGA
Interim Federal Public Defender

DATED: July 10, 2020

By: s/Tracy Casadio
TRACY CASADIO*
Deputy Federal Public Defender
Attorneys for Petitioner
ROBERT DEANE SCHWARTZ

*Counsel of Record

1

